September 30, 2014

MEMORANDUM FOR:           DAVID E. WILLIAMS, JR.
                          VICE PRESIDENT, NETWORK OPERATIONS




FROM:                     Robert J. Batta
                          Deputy Assistant Inspector General
                           for Mission Operations

SUBJECT:                  Management Alert – Manual Package Counting and
                          Conversion Factors (Report Number NO-MA-14-008)

This management alert presents the results of our review of Manual Package Counting
and Conversion Factors at the Omaha, NE Processing and Distribution Center (P&DC)
(Project Number 14XG029NO000) and other facilities. We concluded that management
at the Omaha P&DC overestimated manual package volume because they inaccurately
estimated container fullness and used outdated and/or incorrect container conversion
rates. We are alerting you to this condition because it may be systemic throughout the
network and could result in overstated manual package processing volumes.

If you have any questions or need additional information, please contact James L.
Ballard, director, Network Processing and Transportation, or me at 703-248-2100.

Attachment


cc: Corporate Audit and Response Management
Manual Package Counting                                                                             NO-MA-14-008
 and Conversion Factors


Introduction

This management alert presents the results of our review of manual package counting
and conversion factors at the Omaha, NE Processing and Distribution Center (P&DC)
(Project Number 14XG029NO000).

Strong consumer demand for purchasing goods over the Internet has driven growth in
package volume in an otherwise declining mail market. The Postal Service needs to
make sound management decisions based on accurate productivity and operations data
to meet the challenges and opportunities presented by this growing demand for
package delivery. In its 2012 Five-Year Business Plan, the U.S. Postal Service
projected that package volume, which was 3.7 billion in fiscal year (FY) 2013, will grow
5 to 6 percent per year through 2017. Between FY 2009 and FY 2013, package volume
increased a total of 20.6 percent.1

The Postal Service uses count sheets to tabulate manual package processing volumes.
These count sheets provide an estimate based on conversion factors for various types
of mail containers (see Appendix A for samples of count sheets). The count sheets
allow employees to more easily estimate how many packages are in a container, rather
than counting each mailpiece. Employees enter volume estimates into applicable data
systems using these manual count sheets.

Conclusion

We concluded that Omaha P&DC management overestimated manual package volume
because they inaccurately estimated container fullness2 and used outdated or incorrect
container-per-piece conversion rates. This condition may be systemic throughout the
network and could result in overstated manual package processing volumes.

Package Counts at the Omaha Processing & Distribution Center

We found that management overstated the number of packages the Omaha P&DC
processed manually. On July 8, 2014, 579 of the 665 containers (87 percent) were
reported as full; however, we concluded that many were not full.

We conducted a systematic random sampling of 60 containers on July 8, 2014, and
found that only 39 containers (65 percent) were full although the count sheets listed 557
out of 665 containers (87 percent) as full (see Figure 1).




1
  Package volume was 3.077 million in FY 2009 and 3.711 million in FY 2013. To calculate the percentage increase,
we took the difference between these two years and divided it by 3.077 million. [(3.711 million - 3.077 million) / 3.077
million] = 20.6 percent.
2
  Container types used to transport packages to, from, and through mail processing facilities include: flats, sacks,
tubs, all-purpose containers (APC), gaylords, and over-the-road (OTR) containers.
                                                          1
Manual Package Counting                                                     NO-MA-14-008
 and Conversion Factors


             Figure 1: July 8, 2014, Count Sheet From the Omaha P&DC




Our observations support concerns that the Postal Service could be overestimating
package counts. Based on our estimates, the container in the picture below was only
one-quarter full, yet the count sheet for this date erroneously shows it as full or one-half
full (see Figure 2).




                                             2
Manual Package Counting                                                                      NO-MA-14-008
 and Conversion Factors



                                    Figure 2: Partially Full APC




           Source: U.S. Postal Service Office of Inspector General (OIG) photograph taken at the
           Omaha P&DC July 8, 2014.

Nationwide Package Counts

Since the manual mail counting processes are the same nationwide as they are at the
Omaha P&DC, estimates for manual package volumes nationwide could be overstated.
Using count sheets and some conversion factors for each container type, we examined
nationwide data on packages and found that:

   Manual package processing sorts 36 more packages per workhour than automation.

   Facility data from the Omaha P&DC and the Lansing and Grand Rapids, MI, P&DCs
    all showed manual package counts to be higher than automation counts (see Table
    1).




                                                      3
Manual Package Counting                                                                         NO-MA-14-008
 and Conversion Factors


                           Table 1: Packages Processed Per Workhour
                                 April 2013 Through March 2014

                                 Manually                  Total                Difference          Percentage
                               Processed Per             Automated                                  Difference
                                 Workhour                   and
                                                        Mechanized
                                                       Processed Per
                                                         Workhour
NATIONWIDE                             264                  228                       36                  16

Omaha P&DC                             259                     196                    63                 32
Lansing P&DC3                          461                     152                   309                 203
Grand Rapids P&DC                      377                     3394                   38                 11
Source: Management Operating Data System (MODS).

The nationwide data could be erroneous because manual package productivity should
not exceed automation productivity. This overstated productivity can impact staffing
levels5 and result in inaccurate management decisions. We identified several factors
that impacted this data:

   The Omaha P&DC did not properly train employees on mail counting procedures.
    The Postal Service requires processing facilities to accurately record mail volume
    and establishes guidelines for periodic review of data system reporting procedures
    to ensure accuracy.6 Generally, facilities use container count sheets in manual
    package processing to record volume. Employees estimate manual package volume
    by counting each container and estimating how full it is. There is, however, no
    consistency in the count sheets used by plants (see Appendix A, Figure 3 and
    Figure 4).

   The Omaha P&DC container count sheets7 contained incorrect conversion rates. We
    observed significant differences between counts based on the container conversion
    factors (see Appendix A, Figure 4) and the actual number of packages in the
    containers. The APC in Figure 1 actually contained 29 packages and, by our
    estimate, was about one-quarter full. If the count sheet reported this APC as one-
    half full, the estimated piece count would be 106 packages (77 more than actual).8 If
    it was counted as full, the estimated piece count would be 211 packages (182 more

3
  Productivity for the Lansing and Grand Rapids P&DCs came to our attention during our audit of the Equipment
Transfer from the Lansing to the Grand Rapids P&DC (Report Number NO-AR-14-010, dated September 5, 2014).
4
  Includes labor distribution code 13 [Total Piece Handled (TPH) + Non-Add TPH (NATPH) /workhours]. For machine
operations, TPH is total pieces fed minus any reworks or rejects. Non-Add TPH is the TPH count in non-distribution
operations is recorded as TPH but not added to the bottom line for mail processing distribution.
5
  Employee Labor Relations Manual Number 36, Chapter 125.2, Staffing Criteria, September 2013.
6
  Handbook M-32, Management Operating Data System, April 2000.
7
  The Postal Service uses conversion factors for various types of mail containers, allowing employees to more easily
convert full or partially full containers into mailpieces and record these numbers in the applicable data systems.
8
  Omaha P&DC's conversion rate for Table 2's APC = 211 when full. A quarter full APC has 53 packages (211 X
0.25 = 53 packages) and a half-full APC has 106 packages (211 X 0.50 = 105.5 packages).

                                                         4
Manual Package Counting                                                  NO-MA-14-008
 and Conversion Factors


   than actual).The incorrect conversion factors on the count sheet for this APC
   contributed to overstated package volume.

Recommendations

We recommend the vice president, Network Operations:

1. Automate manual package processing counts nationwide.

2. Revise the count sheet to ensure consistency among various mail processing
   facilities and adjust container-to-piece conversion rates to ensure more accurate
   mail volume reporting until the manual package processing counts can be
   automated.

3. Train employees on proper counting of manual packages nationwide.

Management’s Comments

Management agreed with our findings and recommendations.

With regard to recommendation 1, management stated that manual package counts will
be automated through the deployment and use of ring scanners where applicable. The
target completion date is October 31, 2015.

With regard to recommendation 2, management stated they will standardize count
sheets and conversion rates to ensure accuracy and consistency. The target completion
date is March 30, 2015.

With regard to recommendation 3, management stated their action will be comprised of
two steps. First, they will provide messaging to area management on standardized
count sheets and reporting procedures with a target completion date of March 30, 2015.
Second, they will provide training for automated counting procedures with a target
completion date of October 31, 2015.

See Appendix B for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report.




                                           5
Manual Package Counting                                                    NO-MA-14-008
 and Conversion Factors


                  Appendix A: Count Sheets and Conversion Factors

Count sheets vary from facility to facility in their container conversion rate assumptions
and methods for recording container fullness (see Figure 3 and Figure 4). The Omaha
P&DC reports an APC with 211 packages as full, while the North Texas P&DC reports
an APC with just 85 packages as full. Likewise, the Omaha P&DC reports that a full
OTR container has 316.4 packages compared to 170 packages at the North Texas
P&DC. In addition, the Omaha P&DC count sheets have container increments
anywhere from one-quarter to full, while the North Texas P&DC count sheets do not
have this breakout.




                                             6
             Manual Package Counting                                       NO-MA-14-008
              and Conversion Factors


                          Figure 3: Omaha P&DC Manual Package Processing Count
                                                 Sheet



APC
Conversion
Factor
211




OTR
Conversion
Factor
316.4




             Sample Omaha P&DC count sheet, dated July 8, 2014.




                                                            7
             Manual Package Counting                                                                                                                   NO-MA-14-008
              and Conversion Factors


                    Figure 4: North Texas P&DC Manual Package Processing Count Sheet
                                                                              FHP PRIORITY PARCELS MAIL
                     Instructions: This form is for summarizing all the volume of mail entered into the Priority operation during
                     each applicable tour. Use the blocks to record the type of containers. Then convert the summation of each
                     by the given formula. Circle the appropriate operation.

                     ORIGINATING MIXED OPERATION                                                    321                  DESTINATION MIXED OPER               324

                     SUPERVISOR                                                                                TOUR                    DATE


                     LARGE HAMPERS




                     SUB TOTAL X 42.5

                     SMALL HAMPERS:


APC
Conversion           SUB TOTAL X 19.23
Factor
85                   WIRES:




                     SUB TOTALS X 85.84
OTR
                     APC:
Conversion
Factor
170
                     SUB TOTAL X 85.

                     OTR'S :




                     SUB TOTAL X 170.

                     GAYLORD 3'                                                                                                     SUB TOTAL X 170.
                     GAYLORD 4'                                                                                                     SUB TOTAL X 255.
                     GAYLORD 5'                                                                                                     SUB TOTAL X 340.


                                                                                  GRAND TOTAL:
                                                                                                            MODS Transaction: Enter volume in whole pieces.

                     Turn in to In Plant Support, MODS wicket.
                     September 26, 2003
                     Sample North Texas P&DC count sheet (January 28-29, 2014).

             Conversion rates may be used when automation, mechanization, meters, or other
             counting mechanisms are not available. Conversion rates may also be used when
             conducting volume surveys. Table 2 gives the national conversion rates for various
             container types.




                                                                                             8
Manual Package Counting                                                           NO-MA-14-008
 and Conversion Factors


                Table 2: National Container-to-Pieces Conversion Rate
                                     March 2009

             Shape                            Container                           Rate
             Flats                             Flat tray                           17
                                                U-Cart                             30
                                                 APC                              600

             Mixed             Small Parcel and Bundle Sorter Tray                 5.98
                                          Orange Sack                             10.89
                                             U-Cart                               10.62
                                         1033 Hamper                              19.23
                                         1046 Hamper                               42.5
                                             Pallet 1'                            34.18
                                             Pallet 2'                            68.35
                                             Pallet 3'                           102.53
                                             Pallet 4'                            136.7
                                              APC                                   85
                                            Wiretainer                            85.84
                                         OTR Container                             170
                                            Gaylord 3'                             170
                                            Gaylord 4'                             26.7
                                            Gaylord 5'                            283.3

           Packages                              Sack                               7
                                                 APC                                70
                                                 OTR                               140
     Source: Handbook M-32, Appendix D, Priority Mail Container-to-Pieces Conversion Rate,
     March 2009.




                                                 9
Manual Package Counting                                       NO-MA-14-008
 and Conversion Factors


                          Appendix B: Management's Comments




                                         10
Manual Package Counting        NO-MA-14-008
 and Conversion Factors




                          11
Manual Package Counting        NO-MA-14-008
 and Conversion Factors




                          12
